Lubbock County Courthouse
904 Broadway
Second Floor
Lubbock, Texas 79401
(806)775-1100 Fax (806)775-7930

K. SUNSHINE STANEK
CRIMINAL DISTRICT ATTORNEY
P.O. BOX 10536
LUBBOCK, TEXAS 79408-3536

OFFICE OF THE CRIMINAL DISTRICT ATTORNEY

October 13, 2021
VIA ELECTRONIC FILING AND U.S. MAIL
Scott S. Harris, Clerk
Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re:

Anthony Carter v. Texas, No. 21-269

Dear Mr. Harris:
Pursuant to Rule 30.4 of the United States Supreme Court, the State of Texas
respectfully requests a thirty day extension of time to file a brief in opposition to the
Petition for Writ of Certiorari. The Petition for Writ of Certiorari in the above entitled
case was filed on August 18, 2021. On October 12, 2021, the Court requested the State to
file a brief in opposition to the Petition for Writ of Certiorari, to be filed on or before
November 12, 2021.
Undersigned counsel represents the State of Texas in the above referenced matter,
and is set to begin a capital murder trial in the 140th District Court of Lubbock County,
Texas, on October 25, 2021, in State of Texas v. Mark Bethel, Cause Number 2021423,232. The trial is expected to last a minimum of two weeks.
Accordingly, the State respectfully requests a thirty day extension of time, until
December 12, 2021, to file its brief in opposition. Thank you for your time and attention
in this matter.
Respectfully submitted,
/s/ Lauren Murphree
Lauren Murphree

